  "",.
  ."
  :::   ..
      ' :,:  ":"::::::::::
        . ;:::
     ::::'  ::: ::;: ",.".    .....
                  ,:;:;,;:::;::::
                     """:':::.:::;.:
                          :::;:::/.
                                ...   '.
                                 ,.:-,",'.',
                                    ":;:; ... ,,'''
                                            . '"',......,.....
                                        "'"'''..''
                                         "'''''''
                                      .::::,)
                                         :.::::...,
                                               :::: ...., .,....,,"....
                                                   :,..,::)
                                                 ,':':'      ,.."..
                                                         ...."
                                                          ::::. ;:;'  ."""'"
                                                                ..' ......
                                                                '" ,... ... ...
                                                                     ::::::    .,..
                                                                                ..
                                                                             ",..,,..,,'..,.
                                                                            .....
                                                                      , :..':':':':'
                                                                              .".
                                                                            ::\?::
                                                                                ,.      . ..
                                                                                       ......
                                                                                          :....
                                                                                      ".,.", ""
                                                                                   , :,, , "'"
                                                                                            ...  .. "" ~~~~~
                                                                                            . ''".",
                                                                                                .:'' ::    '" ':.
                                                                                                           , ':':."' , ' ,"....
                                                                                                     ;':"':'::'             ,::',,"
                                                                                                                                 .             .",",.,.. ..;..
                                                                                                                                      '., :...:::::::::::':
                                                                                                                                                 .'",..    "",..' '" ...,.',.. ..
                                                                                                                                                      ;::':::::::.: :,:,.....
                                                                                                                                                           .'::" ,.::..::.,::;::::::::::::=::::::
                                                                                                                                                                              , :::;,  \: ';.;..:::::
                                                                                                                                                                                 ;.:'.;.
                                                                                                                                                                                    ::::::
                                                                                                                                                                                    ;::::'::        .-
                                                                                                                                                                                             ':;;::::)
                                                                                                                                                                                                 :::'
                                                                                                                                                                                                  "".    ...   .......
                                                                                                                                                                                                                ,........
                                                                                                                                                                                                      ,'=.........
                                                                                                                                                                                                   :;.:
                                                                                                                                                                                                    ='::::".'"..,
                                                                                                                                                                                                         .-'::
                                                                                                                                                                                                    :.:;:::::::::;:;:
                                                                                                                                                                                                           :::
                                                                                                                                                                                                             '..
                                                                                                                                                                                                              :':':"
                                                                                                                                                                                                                  ::: ,.,..
                                                                                                                                                                                                                      ....
                                                                                                                                                                                                                      /''...
                                                                                                                                                                                                                   .:::
                                                                                                                                                                                                                     ':::'     ...
                                                                                                                                                                                                                               ...
                                                                                                                                                                                                                           ;::':,
                                                                                                                                                                                                                              .   .':
                                                                                                                                                                                                                                    ".::,
                                                                                                                                                                                                                                :::;;:
                                                                                                                                                                                                                                  ::::::' ............
                                                                                                                                                                                                                                           ,....
                                                                                                                                                                                                                                         (/::;
                                                                                                                                                                                                                                         ...
                                                                                                                                                                                                                                       ::;:::
                                                                                                                                                                                                                                         ::::
                                                                                                                                                                                                                                         .              '" ....
                                                                                                                                                                                                                                                    .......
                                                                                                                                                                                                                                                 ........
                                                                                                                                                                                                                                      ...................
                                                                                                                                                                                                                                          :::::,;:::::::::  ,...... ..,.. ".,.. . .. "", ...
                                                                                                                                                                                                                                                     :::::;:::  .::-,...........
                                                                                                                                                                                                                                                    ..,..,.............
                                                                                                                                                                                                                                           ,.....=::::
                                                                                                                                                                                                                                                  ,;;:
                                                                                                                                                                                                                                                     '."
                                                                                                                                                                                                                                                    ..,.    ".
                                                                                                                                                                                                                                                          ....
                                                                                                                                                                                                                                                            ,.....  '...
                                                                                                                                                                                                                                                        .:::);:::;::=;     ..................
                                                                                                                                                                                                                                                                           '.'..,.
                                                                                                                                                                                                                                                                       ;::"..
                                                                                                                                                                                                                                                          :;:;:;:;::.):::;:
                                                                                                                                                                                                                                                          :::::
                                                                                                                                                                                                                                        ........,...,....,.   ,:::::::;:
                                                                                                                                                                                                                                                             ..                       ., ..
                                                                                                                                                                                                                                                                                    ....
                                                                                                                                                                                                                                                                            .. ;.;::::'::  ",
                                                                                                                                                                                                                                                                                           :),
                                                                                                                                                                                                                                                                                         ::;('
                                                                                                                                                                                                                                                                          ::::::::::::::::
                                                                                                                                                                                                                                                                                :;:;:;:;;: :::
                                                                                                                                                                                                                                                                                          .. =.....
                                                                                                                                                                                                                                                                                            "'"
                                                                                                                                                                                                                                                                                            .  :::
                                                                                                                                                                                                                                                                                               :::"
                                                                                                                                                                                                                                                                                                ,.;::::::::
                                                                                                                                                                                                                                                                                                   :, .
                                                                                                                                                                                                                                                                                                  ....:::: :.:'::
                                                                                                                                                                                                                                                                                                                '": :.:,
                                                                                                                                                                                                                                                                                                                     ".",::::.:
                                                                                                                                                                                                                                                                                                      :':'::::::.::::'
                                                                                                                                                                                                                                                                                                        ,:::             :\//:::):::,
                                                                                                                                                                                                                                                                                                                         ...
                                                                                                                                                                                                                                                                                                                          ::. ",::,::::
                                                                                                                                                                                                                                                                                                          ;::::::.::.:::'::
                                                                                                                                                                                                                                                                                                             ,:,::::
                                                                                                                                                                                                                                                                                                              ".."","     ~~~~
                                                                                                                                                                                                                                                                                                                          :::::::::, :=:    ..,
                                                                                                                                                                                                                                                                                                                                              ,/::"
                                                                                                                                                                                                                                                                                                                                       :':' :';:'
                                                                                                                                                                                                                                                                                                                                             :::'      /):
                                                                                                                                                                                                                                                                                                                                                     . .:.''' .,' ..
                                                                                                                                                                                                                                                                                                                                                '. ::,:,                 "':':.' '
                                                                                                                                                                                                                                                                                                                                                                  ' . ,:/":
                                                                                                                                                                                                                                                                                                                                                                        ..




                             .... '"
                              .. non . .....
                                        n....                                                                                                                                                   . n                           .....
                                                                                                                                                                                                                               , ...n.u.. .... ........
                                                                                                                                                                                                                                                n.. n. ......
                                                                                                                                                                                                                                                        .. .......
                                                                                                                                                                                                                                                              . n...n.

                                                                                                                                                                                                                                                                     ...

                                                                                                                                                                                                                                          t)rt))f(tmmr: r)rr;tjf\




                                                                                                                                                                                ;il
                                                                                                                                                                         :;:::;;rf                                                  ::::r::
                                                                                                                                                                                                                                                                                                                ::r
                                                                                                                                                                                                                                                                                                                                     1t:




OFFICE OF INSPECTOR GENERAL
 OFFICE OF ANALYSIS AND INSPECTIONS



                                                                                                                                                                                                                                                                                                                                                  MAY 1989
                   OFFICE OF INSPECTOR GENERAL

The miion of the Ofce of Inpector General (OIG) is to promote the effciency,
effectveness and integrty of program in the United States Deparent of Health
and Human Servces (HHS). It does th by developin methods to detect and
prevent fraud, wast e and abuse. Created by statute in 1976, the Inctor General
keeps both the Secreta and the Congess fuy and cuently inormed about
program or magement problems and reCommends correctve acton. The OIG
perform its miion by conduct audits , investigations and inpectons with
approxtely 1,200 sta    strtegiciy locted around the   countr.

             OFFICE OF ANALYSIS AND INSPECTIONS

Th report is produced by the Ofce of Anysis and Inpectons (OAl), one of the
three major offces with the OIG. The other two are the Offce of Audit and the
Offce of Investigations. The OAl conduct inpectons which are tyicay,
short-term studies designed to determe program effecveness, effciency and
wlerabilty to fraud or abuse.
Th monogrph on medca mapractce wa prepared to provide the Inctor
General and other interested pares with a brief sythesis of cuent inormtion
regardig the mapractce inurance problem faci our countr.

The report wa prepared under the diecton of Kaye   D. Kidwell Regiona Inpector
Genera and Paul A. Gottober, Deputy Regiona Inpecor General of Region IX
Offce of Anis  and Inctons. The research was conducted by Thomas A.
Purv of Region




 OAl-0-89-O300
PREFACE

            This monograph presents a summary of information derived
            from secondar sources on the legal and medical aspects of
            malpractice. It (a) describes the rise both in the costs of
            malpractice insurance premiums and in clai paid
            (b) discusses the tyes of procedures and medical specialties
            most likely to lead to the    fig
                                            of claims , (c) reviews several
            studies which have analyzed the extent to which poor quality of
            cae leads to malpractice suits and (d) exames current efforts
            withi the Deparent of Health and Human Servces (HHS)
            to deal with the malpractice problem.
                We anticipate that fidigs   in th report may provide a basis
                for fuher studies or inpections on one or more aspects of the
                malpractice problem.
INTRODUCTION

                Medica malpractice is a complex and highly visible problem
                that remai unesolved despite comprehensive study, tort
                reform in al States and improvement of professional standards
                over the past decade. The General Accounting Offce (GAO)
                has stated that medical malpractce is a problem with "no easy
                anwer or quick fi.
                Malpractce refers to any health cae provider s behavior which
                fais to meet current standards of care and which leads to an
                avoidable adverse medical outcome , whether a legal
                determation has been made or not. In its legal sense, the
                term malpractice refers to a judicial determiation under State
                tort law that there has been a neglgent faiure to adhere to the
                cuent standards of medical cae, resultig in injury to the
                patient. Usualy a jury (a) sets the standard of care , based on
                expert testiony and broad guidance from the judge , and (b)
                determnes whether the physician s conduct conformed to the
                standard of care and whether the physician s negligence caused
                the patient s injury. Finaly, the jur determes both economic
                damages, such as past and future medical expenses and lost
                earngs , and noneconomic damages, such as pai and
                suferig or loss of a famly member. An insurance company
                then pays a claim based on these determnations, although
                sometimes pares   agree   to resolve claims prior to a judicial
                determnation.
                The "malpractice problem" also consists of at least two distinct
                although interrelated , issues: (a) how to reduce the incidence
                of malpractce and (b) the consequences of increased
malpractice on liabilty insurance costs , on fees and charges
and on access to care. Reducing malpractice requires physician
credentialng, medical licensure and discipline and quality of
care assurance through peer review. Addressing malpractice
consequences requires tort law reform and alternatives to tort
litigation. This monograph deals with both dimensions of the
malpractice problem.
The malpractice problem is reflected in the growig number of
claims fied, the increase in the size of court awards and
settlement amounts and the riing cost of inurance premiums.
For exaple    , a recent survey by    Medical Economics found that:

    . Six   out of 10 doctors say they have been sued.
    .   The average malpractice settlement approached $81 000
        in 1987.


    . Although the average     malpractice premium is $17 000,
        rates in some specialties are as high as $200, 000.
Measurg the incidence of malpractce is dicult.           Such a
measurement caot be based on the number of clai fied
because substandard medical care is not found in every case.
Cour awards and settlements do not gauge al intances of
mapractice, because the cost of litigation discourages some
vald clai and encourages settlement in cases where
mapractice may not have occurred. Payment of a clai does
not necessary provide evidence of malpractce, because an
adverse medica outcome leadig to a clai may exist even
though the physician treats the patient in accordance with
cuent standards of care. Finaly, it is not clear whether the
increased frequency of suits reflects (a) a greater propensity for
actal   vict  to seek compensation or (b) an increased
wilingness of the court to expand the defition of
malpractice and thus expand the pool of potential claiants.
Several comprehensive studies on the problem of medical
malpractice have been completed in the past 3 years:

    . In 1986- 1987,        GAO issued a series of report presenting
        inormation relatig to increases in the cost of medical
        malpractice inrance and other aspects of the
        malpractce problem. Included in the GAO series was a
        study of a sample of malpractice claims closed in 1984
        25 inurers. This report is priary source for much of
        the current empirical data on the frequency of claims

        amounts paid and tyes        of aleged negligence.
   . In August 1987,  HHS issued its " Report of the Task
     Force on Medical Liabilty and Malpractice" which
     contained a summary of available information on
     malpractice and an agenda for deparmental action.
   . The Duke University School of Law issued a series of
     papers from a 1986 Symposium " Medical Malpractice:
     Ca the Private Sector Find Relief?"
   . The Intitute of Civil Law of the Rand Corporation
     issued a series of report and statistical analyses.
   . In 1988 , the Offce of Inpector General (OIG)
     conducted a study on qualty of care as par of the
        National DRG Valdation Study.
Two signcat older report are:

   . the 1973 Health ,   Education and Welfare (HEW) Report
       of the Secretar s Commsion on Medical Malpractice
       and
   .   a 1977 joint report by the Caiforna Medical Association
       and the Caiforna Hospital Association, one of the few
       studies to   exame substadard   medical cae based on a
       sample of hospital records rather than suits fied.
Most of the inormation in ths report is derived from these
studies. We alo conducted telephone intervews with some
study authors for interpretations of data and updates on the
most cuent developments.
A draf version of this report was cicuated to key staf      of the
Deparent' s Task Force on Medical Liabilty and
Malpractice. Their comments are reflected in ths fial       report.
FINDINGS
           Malpractice Premiums, Claims Frequency and Severity Continue
           to Rise
                 According to GAO, malpractice inurance costs for physicians
                 and hospitals rose from $2. bilon in 1983 to $4. 7 bilon in
                 1985. As a percentage of average gross business expenses
                 inurance costs for physician rose from 8 to 10 percent during
                 this period. For some specialties, the increase bas exceeded
                 100 percent. As of 1985, the highest inurance rates were
                 concentrated in thee specialties (neurosurgery, ortopedic
                 surgery and obstetrcs/gyecology) and in five places (New
                 York, Florida, Dlois, Michigan and the District of Columbia).


                           AVERAGE ANNUAL PREMIUM


                                         ,118,     11185

                TMOUMJDa 01 DOLI.I





                                A-QS/GYN; B-FAMILY PHYSICIAN

                             C-GENERAL SURGEON; D-PEDIATRICIAN
                                E-INTERNIST; F-ALL PHYSICIANS



                 The Commssioner of the Minnesota Deparment of
                 Commerce recently completed a controversial study that found
                 that trends in malpractice claims and settlements in Minesota
                 North Dakota and South Dakota do not justify the signficant
                 increases in malpractice premium. The increased premium
                 costs are passed on to patients and also result in major
                 problems of access to high risk specialties. For example , the
                 rik of   malpractce suits is cited by 123 percent of
                 obstetrician/gyecologists and 23. 3 percent of famly
                 physicians as the reason for dropping their obstetrcal
                 practices. Problems of access are especially acute for low
                 income and Medicaid patients.
     As the following chart ilustrates , the frequency of claims made
     against all physician rose from 3. 2 claims per 100 physicians
     prior to 1981 to 10. 1 claims per 100 physician in 1985. Total
     compensation--awards and settlement payments--grew from
     $391.6 mion        in 1979 to $1.5 bilion   in 1985.


        GROWTH IN INCIDENCE OF CLAIMS




            CLAIMS PER 100 PHYSICIANS BY SPECIALTY

               BEFORE 1981         1981-984 1i1985
                A-OB/GYN; B-SURGEONS; C-RADIOLOGISTS

                  D-PEDIATRICIANS; E-ANESTHSrOLOGISTS
               F-INTERNAL; G-GENERAL; H-ALL PHYSICIANS



Stte Tort Reforms Have Slowed-but Have Not Stopped-the
Growth In Severit and Frequency of Claims

      Since the mid- 1970s, al States have enacted one or more tort
      law reform or alternatives to litigation to inure the
      avaiabilty and reduce the cost of malpractce inurance. The
      more common reform include:
      Statutes of Limitations : Statutes of litations prescribe the
      time withi which a lawsuit must be initiated. Many States
      have changed their statutes of litations to require that
      actions involvig medical injury begin withi a specied
      number of years from the date the injury occurs or from the
      time of discovery of the injury. (In most States, actions
      involving miors as plainti must begin with a specified
      number of years from the time a minor reaches age 18 or 19.

      Pretrial Screening: States have established boards or
      commssions to hear and rule on claims submitted prior to a
      tral, in the   hopes the claims wi    be settled out of court.
      Decisions mayor may not be admissible if the case does go to
      tral at a later time.
Collateral Source : Malpractice awards must be reduced by
compensation received from collateral sources in some States.

Limits on Liabilty :The maxum award per patient injury or
death has been lited in several States; in most, the limitation
applies only to noneconomic losses.

Joint and Several Liabiltv: Some States have lited the
application of laws creatig joint and several liabilty, while
others have abolished them completely. Joint and several
liabilty laws permt plaintif to hold one defendant liable for
the full amount of an award even when that defendant was only
slightly neglgent and was one of several negligent providers.
These laws have been used by plaitifs to collect from
defendants known to have large assets , regardless of relative
fault.

Arbitration: Arbitration is an alternative to litigation for
resolvig disputes. As of 1987, 18 States had statutes
permttig voluntar, bindig arbitration in malpractice suits.

Attorney Fee Limitations:    In malpractice caes, plaintifs
usually pay their attorneys on a contingent fee basis. Many
States have sought to regulate the size of the fee , usually to a
flat percentage of the plaiti' s recovery or on a sliding scale
with the percentage decreasing as the size of the recovery
increases.

Periodic Payments: Traditionaly, settlements in malpractice
caes have been awarded in lump sum. Many States now
alow court to make awards for future losses in intalents.
A 1986 study by Patricia Danon for the Rand Corporation
presents empircal evidence concernng the effects of these and
other tort reform. The study found:
 1. States enacting shorter statutes of limtations have had less
    growth in claims frequency. On average , reducing the
    statute of litations for adults by 1 year reduces claims
   frequency by 8 percent.

 2. Statutes permttig or mandating the offet of collateral
    benefits have reduced claims severity by 11 to 18 percent
    and clai   frequency by 14 percent.

 3. Caps on awards have reduced severity by 23 percent.
                         4. Arbitration statutes appear to have increased claim
                            frequency but reduced average severity.
                      Of the other reform analyzed in the Rand study, including
                      screening panels to sort out whether claims are justified and
                      placing lits on contingent fees , none appears to have had any
                      systematic effect on clai frequency or severity.

             Improper Diagnosis, Surgery and Treatment Account for Most
             Malpractice Claims

                      Nationwide , the most common grounds for               fig
                                                                    malpractice
                      clai  have been improper diagnoses, improper surgical
                      procedures and treatment problems. In 1985- 1986, for




           TABLE 1. CLAS      AN SEITMENT                COSTS BY CAUSE OF ACTON

                                            PERCE OF
                         procures
                                            ALL    CLAS.                     AVERAGE
                                                                                COST ..

Post operative surgica                            29.                        $02,670
Improper obstetrc treatment                       14.3                        103, 124
Faiure to diagose cacer                           11.                          70, 865
Indvertent surgica act                                                            033
Faiure to diagose fracte                                                          894
Improper treatment beuse of
  drg side               effect 6.
Other
               procure
Inapproprite surgica
          procures  16.6.                                                      49,379
                                                                                  477
                                                                               66,352
.Represents percent of the 6,333   cla in th saple.
"Legal costs plus   tr award or settement
SOURCE:     Medical Economic.",   Apri18, 1988.   Data are for 1985- 1986.




                      example, the thee most common reasons for fing claims
                      against the St. Paul Fire and Mare Inurance Company, the
                      largest malpractice insurer, were faulty post-operative surgical
                      procedures, improper obstetrc treatment and failure to
                      diagnose cacer.      Durg that period, however, plaitiffs
                      received awards in only 30 percent of the cases. Table 1 shows
                      the tye of clai and awards most frequently made against
                      providers inured by thi company in 1985- 1986.
                      The GAO closed clai study found that about one- quarter of
                      all claims arse from improper diagnoses , another quarter from
                      poor surgical outcomes and one-fith from problems in
                      treatment (see the pie char at the top of page 8).
     CLAIMS FILED BY TYPE OF PROCEDURE
                                     (1984 DATA)





                                                       OBSTETRICS
             TRE"TMENT
                20..




                                                    SURGERY

                            OTHER
                              12..




Most Malpractce Claims Are Filed against Physicians;
Obstetricians and General Surgeons Are Most Frequently Sued

        The followig char shows the ditribution of malpractice

        clai by        provider and tye of medica facilty:


              DISTRIBUTION OF DEFENDANTS
                                     (1984 DATA)





 NURSES/DENTISTS S"    ALL OTHE AS S"


               PROVIDERS                             FACILITIES




        Claims are not distributed proportionately across specialties.
        Whle 32. 9 percent of al             clai
                                        are agait general and
        ortopedic surgeons,               obstetrician and gyecologists, these
        specialists account for less than 15 percent of all physicians.
        TABLE 2. NUMBER AND PERCENT OF CLAMS FILED, BY SPECIATY
                          ALL PHYSICIAS INVOLVED IN CLAMS
Specialty Number(a) Percent (b) Number
                    23 5.
General Surgery 31,3 6.
ObstetricsGynecolog 25            927
                                  733 12.
                                              2
                                              4 8
                                                8
                                              0 6 06
                                                                            Percent (c)
                                                                               12.4

Orthopedic Surgery 14,572 3.                                                    8.4
Internal Medicie 60, 118 12.     5;397
                                 4,555                                          7.5
General Practce 29;399 6.
Famy Practce 31 195 6.
Radiology 19 839 4.
        Medicie 7    811
                     845  1.
                           3.5  3
                                 4,55 6.
                                  973
                                 3;325
                                  073  4.
                                              1 3,                              6.3

                                                                                5.5
Emergency


TOTAL 485,
Other      80 51.3
Anesthesology 16
               0 7123.378 32.
                         248.
                                12 100.                           93 100.
                                                                                4.3



(a) Total number of physician in specty

( c) Shows percent of the 71,93 cl
(b) Percent whch specialty constutes of al physician
                                     closed

Source: General Accuntig   Offce,   Medica Maloractce: Characteritics of   Clai
Closed in 1984. o. 5455



            Malpractce Claims Frequently Do Not Result In Payment

                    Less than hal of al malpractice       clai result in payment. The
                    GAO study found that only 43 percent of 73, 472 sampled
                    clai   closed with payment. Ths figure is remarkably close to
                    the figue cited in the 1973 HEW report, which reviewed
                    16, 00 closed claims and found 45 percent closed with
                    payment. A study by the Rand Corporation of 6, 000             clai
                    fied between 1974 and 1976 showed that 52 percent of claims
                    were settled with some payment. Clai may be dropped for a
                    number of reasons, the most frequent being a determination by
                    the claiant that the case is not strong enough to wi or that
                    the size and lielihood of an award does not justify the cost of
                    proceeding with the claim.
                    As   was true for frequency of clai fied , the percent of total
                     clai resulting in payment and the payment amount vares by
                     specialty. The GAO study collected data on the percent of
                     physician by specialty who had claims paid agait them and
                     the median and average amounts paid (table 3).
                     The GAO report also showed that payments for less than
                     550, 000 were significantly overcompensated (e. g., paid more
                     than the economic loss), while payments of $100, 000 or more
                     were less than the patients ' actual economic losses.
 TABLE 3. PERCENT OF CLAMS PAID,               BY   AMOUN PAID AND SPECIA1Y
                             PERCEm' OF        PERCEm' OF       MEDIA         AVERAGE
                            TOTAL     a.MS     ClS   PAI        PAYME         PAYMEN

SPECITY
ObstetrcsGynecology                12.              45.          $75,         $177 509
General Surgery                    12.              26.           49,
Orthopedic Surgery                                  33.           25,           80, 159
Intern Medicie                       7.5            21.3                        42,757
General Practice                     6.3            37.                         SO,
Famy Practice                        6.3            25.           15,                 339
Emergency Medicie                                   24.5                        2264
Anesthesiology                       4.3            41.                               680
Platic Surgery                       3.2            29.                               172
Pedtrcs                                             33.          195,          198,
Ophtalolog                                          33.           10,           55, 593
Neurosurgery                         2.6            23.                         65, 226
Pathology                                           76.          250           197 652
Other                               25.             29.                 (a)           (a)
TotalAverage/Medi                  100.             31.8(b)                           179


a) Data not avable
b) Percent of al   clai fied tht result in payment

SOURCE: General Accuntig Offce Medica Malpractce: Characteritics of Claims
Closed in 1984   (1987), p. 5456



         Medicare and Medicaid Patients Accunt for Only a Small Portion
         of Malpractice Cases

                   The GAO closed          clai study identied the tye of health
                   inurance used by        the sample patients who fied mapractice
                   clai. Only about 10 percent of al clai were fied by

                   Medicare beneficiares and about 3. 9 percent by Medicaid
                   recipients. Accordig to another study, younger patients fie              ,
                   proportonaly more clai, since the expected value of
                   recovery decreases with age.

         Poor Qualit of Care Is Dificult to Document
                   Measurig the frequency           of substandard medical cae, rather
                   than claims fied , has proved difcult largely because of a lack
                   of agreement on acceptable standards for many medical
                   procedures. One attempt to establish such stadards is
                   currently underway in a series of research projects fuded by
                   HHS to exame ways to foster high quality of care and reduce
                   the volume and magntude of clai.
                    The Caiforna Medical Association           and Californa Hospital
                    Association   (CMNCHA)        commssioned one of the few
                    comprehensive studies to obtain inormation about patient
                    disabilties resulting from substandard medical care. A sample
                    of 20, 864 inpatient hospital medical records for patients
                    discharged in 1974 from 23 representative Caorna hospitals
                    were reviewed for evidence of what the study called
                     potentially compensable events" (PCEs). These were defined
                                                               ll where, in the
                    as intances of " substandard medical care
                    opinon of the reviewers, the physician and the hospital were
                    potentially liable for a malpractce award. The study found
                    that 970 (4. 65 percent) of al hospita inpatient stays resulted in
                    PCEs. Of these 970 caes, about 80 percent resulted in
                    temporar disabilties, 6.5 percent resulted in minor permanent
                    disabilties, 3. 8 percent resulted in major permanent injuries
                    and 9. 7 percent resulted in death.

                    In the judgment of the reviewers , only a fraction of 1 percent
                     (0. 79 percent or 164) of the 20, 864 char     reviewed included
                    evidence that would have supported a verdict in favor of the
                    patient had a malpractce suit been fied.        Th represented
                     about 17 percent of the 970 PCEs. By extrapolating to the
                     entie statewide hospital population in 1974 ,      the study
                     projected 23, 800 potential liabilty cases. Of these, only 2       600
                    would have involved substantial , permanent diabilties.
                     Another 5, 800 were projected to result in death, but this
                     included 800 that the study team said "probably would have
                     died withi 1 year from unrelated , underlyig diseases or
                     conditions. " The CMA data indicate that about 1 in 20 hospital
                     inpatients sufers an injur but only 1 in 125 has a legal clai of



                                                          ER
                     malpractice.
TABLE 4. POTENTY COMPENSABLE INJURY RATE IN CAIFORN HOSPITAL, 1974
                                                                                PERCENT

 Cha Reviewed                                      20,                              100.

 Potential Compensable
 Injures                                                 970

 Caes Involv Probable
 Libilty                                                 164                               79.

 .Th f1ge represents 17 percent of the 970 caes of potential compensble injures or .79 percent
 of the total caes.

                      The OIG " National DRG Valdation Study" on quality of
                      patient cae in hospitals yielded results simar to the CMA
                      study. Whereas the CMA study found potential compensatory
                      events comprised 4. 65 percent of all Californa hospital stays
. :.


- I -..




                the OIG found that 6. 6 percent (464 patients out of 7, 050 in a
                national sample) received poor quality of care ' 'bordering on
                malpractice."

          Poor Qualit of Care Does Not        Usually Lead to Malpractice Suits


                The Rand Corporation conducted a follow-up to the
                CMNCHA study using data for Caorna hospitals from the
                same period,    comparg the number of actal clai to the
                estiated number of injures. Th study concluded that, on
                average, only 1 malpractice clai was fied for every 10
                potentialy successfu clai , and only 4 paid         clai
                                                                     resulted
                from every 100 injures. The rate of    clai  fied and paid was
                higher for permanent diabilties than for temporar ones.
                However, even among cases where negligent care resulted
                major, permanent injuries- the tye of caes most likely to
                result in malpractice clai-only about one claim seemed to
                result for every six injures identied in the CMNCHA study.
                The OIG study did not try to determne whether the intances
                of poor qualty of cae were alo ' 'potentialy compensable
                events" or to estiate how many, if filed, would have resulted
                in a   fiding of legal liabilty by the defendant. If the Rand and
                other studies are a gude, only a smal porton of the
                  6 percent of substadard cae cases found in the OIG study
                would result in a malpractice clai being    fied.    Danon
                                                                     As

                pointed out, "the vast majority of injures arsing out of
                apparently neglgent cae do not result in a suit. This mean
                there are plenty of potential caes to draw from when the
                public s propensity to sue increases or the legal cliate
                becomes more favorable to plaiti.


          Sanctions Are Not Resulting In Denial of Ucenses

                A recent study revealed that physician excluded from
                Medicae and Medicaid contiue to practice medicine. The
                Health Research Group tracked 62 doctors sanctioned by HHS
                between December 1985 and Februar 1988. State bodies
                bave taen action agait only 17 and have not revoked or
                suspended any licenses. Accordig to the Federation of State
                Medical Boards, " State boards bave been improving in recent
                months and have a good record in acting on at least ' egregious
                caes " The American Medica Peer Review Association
                clai   that follow-up is hindered because HHS furnshes only
                the names of excluded physician without patient names or
                detaed inormation about the caes.


                                       1 "\
HHS   Initiatives

              The National Practitioner Data Bank (NPDB)
              Until recently, trackig doctors who have performance
              problems has been very difcut. Even when their
              licenses were revoked and their hospital privieges were
              suspended, doctors could easily move their practices
              across State lies. In response to this problem, the
              Health Cae Qualty Improvement Act of 1986
              mandated that the Secreta of Health and Human
              Servces establih a national data ban The NPDB wil
              conta data on professiona discipliar actions
              malpractce payments , adverse actons regarding clical
              privieges and professional society membership
              revocations.
              The OIG is promulgating regulations that would levy
              civi money penalties agait any individual or entity
              faing to report inormation on medica malpractice
              payments in accordance with the act. A fial rue is
              scheduled for publication by sprig 1989.
              The act requies each hospital to check with the NPDB
              every 2 years about its medica staf and practitioners
              who have clica privieges. The hospital must alo
              check when it hies new medical staf or grants an
              individual clica privieges. The NPDB data wi be
              avaiable to other selected entities. The Public Health
              Servce awarded the NPDB contract to UNSYS who
              wi begi operations late in 1989.
              Data Sharin! amon! HCFA. Peer Review Ol'anizations
              and State Licensin! Boards
              The recent OIG program inspecton on peer review
              organtion (PRO) qualty review recommended that
               HCF A encourage more sharg of inormation about
              physician and providers with quality of care problems.
              Beginng with their next contract year, PROs are to
              share ths inormation systematicaly with licensing
              boards. Once the data ban is operational, HCFA plans
              to have the PROs conduct a 100 percent review of one
              quarer of the servces provided by physician subject to
              diciplinar acton. Followig publication of fial
              regutions allowing PROs to deny payment for
              substandard cae , PROs wi provide physician-specific
              data to State medica boards and national accreditation
              bodies when they find a pattern of substandard care.
Public Health Servce Assistance to State LicensinS!
Boards
The Public Health Servce has established an Offce of
Quality Assurance withi its Bureau of Health
Professions. The Bureau has awarded a contract that
would exame the appropriate structure stafg and
other requiements of State medical boards.
Research on Standards of Medical Practice and
MalDractice
The Offce of the Assistant Secretar for Planng and
Evaluation is fuding project to research such issues as
stadards for medica practce , early detection of
malpractice and the value of deterrence , risk
management program, the role of peer review
organtions and patient outcomes. The Department'
research effort complement those of outside entities.
For example , Stanord University is conducting research
to see if malpractice rik ratigs for anesthesiologists
have improved as a result of professional practice
stadards mandated by physician-owned inurance
caers in Caorna. Th project is testig the
hypothesis that the adoption of explicit professional
practce standards reduces the rik of malpractce suits
by improvig medica outcomes.
Model State Tort Reform Lelrslation and Alternatives
to Tort LitiS!ation

The HHS Offce of General Counel, in consultation
with the Deparent of Justice, has prepared model tort
reform legilation for consideration by the   States. The
model legilation includes (a) lits on noneconomic
damage awards; (b) elimiation of the docte of joint
and several liabilty where a "deep-pocket" defendant
ca be held responsible for payig up to the full cost of
the plaitiffs award, even if his proporton of
responsibilty was smaller; (c) litations on plaitifs
attorney fees; (d) periodic payments; and (d) a statute of
litations requirng        that legal action begin within
2 years afer   a   relationship between a medica event and
an injur was discovered or     should have been
discovered. Model legislation has also been proposed
authorig the use of mandatory nonbinding arbitration
as an alternative to tort litigation. The Deparent has
engaged in outreach actvities to assist States in drafting
their own legislation.
CONCLUSIONS

               Studies to date suggest that, when measured by increases in
               premium payments and in the frequency and severity of claims
               fied and paid, the medical malpractice problem continues to
               grow. The literature does not clearly explai the cause of these
               increases. No evidence exits to suggest that the frequency of
               substandard medica cae is increasing, but no defitive study
               of th issue has been completed. Most observers have
               concluded that the increase in frequency and severity of claims
               is due to the expanion of the tort liabilty system. Cour have
               increased compensation to plaitif   durg the past two
               decades because of eased requiements for establihing joint
               and several liabilty and have moved increasingly to grant large
               awards for noneconomic damages. Some of the State efforts
               at tort reform since the mid- 1970s have slowed , but have not
               stopped, the increases.
               The growt in malpractce suits, awards and premium is
               usualy cat as a problem in itself independent of the
               underlyig problem of substadard medical cae. A valid legal
               clai however, must rest on an actal medica injury. Yet, few
               docuented caes of poor qualty of care result in malpractice
               suits, and fewer than hal the suits fied result in payment. The
               CMNCHA study found in fact that most medica injuries
               result from treatment errors and unorseen mitaes.
               Some observers believe the legal malpractce sytem is the best
               way to compensate   vict of malpractce and deter neglgent
               cae. Others   believe, as one commentator put it, that
                mapractce law is too blunt an  intrent    and applied too
               uncertaiy and broadly to address many or most quality
               problems. The scacity of clai makes most providers believe
               that the system is random and hard.. to use for qualty
               control." The America Medical Association is now takg the
               position that strengthened and publicized disciplie of
               physician should accompany malpractice reform. Inormation
               about the specialties and procedures most liely to lead to
               fig and payment of malpractice claims should help target
               actvities by State licensing boards, PROs and other
               enforcement entities to improve quality of cae.
Issues Neeing Furter Study
     In its 1987 report , HHS promulgated an " agenda for action " on
     the malpractce problem dealing with health care, professional
     liabilty, alternatives to tort litigation and inurance. The
     health care issues cover State licensing boards , risk
     management, the peer review organitions and professional
     education. Other areas that may require fuher study include:
           Improvim! treatment: The HCF A and PHS are
            xaminin g ths as par of their effectiveness intiative.
           Qyity assurance : Th includes PRO and State
           licensing board actvities.
           Information exchange:   Ths primariy involves operation
           of the National Paractitioner Data Ban.
           Malpractice liabilty reform: This involves   both tort
           reform and malpractice inurance reform.
. .




      ANNOTATED BIBLIOGRAPHY

          1. U. S. General Accounting Offce Medical Malpractice. No
          Agreement on the Problems or Solutions. February 1986.

          2. U. S. General Accounting Offce Medical Malpractice.
          Insurance Costs Increased Varied Among Physicians and
          Hospitals. September 1986.
                                          Medical Malpractice. Six
          3. U. S. General Accounting Offce,
          State Cae Studies Show Claims and Insurance Costs Stil Rise
          Despite Reforms. December 1986.
                                          Medical Malpractice. Case
          4. U. S. General Accounting Offce,
          Study on Arkansas. December 1986, and simar studies on
          Caorna, Florida, Indiana, New York and North Carolia.
          5. U. S. General Accounting Offce,  Medical Malpractice.
          Characteristics of Claims Closed in 1984. Apri 1987.
           6. U. S. General Accounting Offce, Medica Malpractice. A
           Framework for Action. May 1987.
          Th General Accountig Offce series on malpractice contai
           the most comprehensive, current data on malpractice clai,
           inurance premium rates and analysis of State reform effort.
           The report include an overvew of the issues, a study of
           mapra         ce costs ,    a sumar            of State malpractce inurance
           reform effort, an analysis of clai closed in 1984 and a
           suar of conclusions, recommendations and suggestions.
           7. Due University School of Law Medica Malpractice: Ca
           the Prvate Sector Find Relief?" in 
 49 Law and Contemporary
           Problems. 2. Bovbjerg and Havigurst editors , Sprig 1986.
           Contans an excellent sumar of legal issues and cuent
           malpractce research.
           The followig publications (8- 14) by the Rand Corporation
           Intitute of Civil Justice contai empirca data on the
           incidence of malpractce clai and the impact of State reform
           effort over the past decade:

           8. Danon, P.M. and             The Resolution of
                                           LA. Ulard,

           Malpractice Claims: Modeling the Bargaining Process. 1982.
           9. Danon, P.M. and              LA. lillard,       The Resolution of
           Malpractice Claims: Research Results and Policy Implications.
           1982.
10. Danzon,P.M.,           The Frequency and SeveritY of Malpractice
Claims. 1982.
11. Danon, P.M. New Evidence on the Frequency and
Severity of Medical Malpractice. 1986.
12. Danon, P.M. The Effects of Tort Reforms on the
Frequency and Severity of Medical Malpractice Claims: A
Summary of Research Results. 1986.
13. Kaak              J. S. and Pace   , N. M.,   Costs and Compensation Paid
in Tort Litigation. 1986.
14. Rolph, John E.,Some Approaches to Deterrng                    Medical
Malpractice (work in progress).
15. Deparment of Health and Human Servces,                     Report of the
Task Force on Medical Liabilty and Malpractice. August 1987.
Contai a thorough discusion of the malpractce issues and
an "agenda for action" for the Deparent

16. " Special         Issue on Malpractce " Medical Economics. Apri
18, 1988. Conta a thorough dicussion of the malpractice
issues and an "agenda for acton" for the Deparment.

17. " MedicaInurance Feasibilty Study, Western Journal of
Medicine. 128:360-365, Apri 1978. Contai a descrption of
the methodology and fidings of the most comprehensive study
completed to date of disabilties of hospital patients resulting
from health cae management
18. Meyers, Alan R., "Luping It: The Hidden Denomiator
of the Medical Malpractice Criis, American Journal of Public
Health. December 1987. Descrbes a pilot study of public
perceptions of hospital caused iless                 and injur.

19. Robert Wood Johnon Foundation, "First Round of Grants
Anounced Under Medical Malpractice Program " June 1988.
A descrption of 14 projects funded by the Foundation to
advance knowledge about what constitutes malpractice, what
causes it and how it ca be prevented.
